OIG Investigative Reports, Second Former Sheriff's Deputy Pleads Guilty to Education Fraud Conspiracy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
September 18, 2000
United States Attorney
Southern District of Mississippi
SECOND FORMER SHERIFF'S DEPUTY PLEADS GUILTY TO EDUCATION FRAUD CONSPIRACY
BRAD PIGOTT, the United States Attorney for the Southern District of Mississippi, announced that JIMMY W. McKAY, of Gulfport, pled guilty today to conspiracy to defraud a federally funded inmate education program at the Harrison County Jail. McKAY pled guilty before United States District Judge Walter J. Gex, III, in federal district court in Biloxi.
As described in the indictment, during the period relevant to the charges, McKAY served as a Deputy Sheriff with the Harrison County Sheriff's Department and an instructor with the Mississippi Gulf Coast Community College. As charged in the indictment, McKay and the other defendants falsely represented that inmates at the Harrison County Jail earned grades as students who had satisfactorily completed the course requirements under the inmate training program. The indictment alleges that McKAY and others prepared false documents, including grade sheets, fraudulently representing that inmates had satisfied the requirements for their courses of instruction, whereas, in truth, during some or all of the period of instruction, a substantial number of these inmates were either not incarcerated at the Harrison County Jail Jail or were assigned to other work areas.
According to the indictment, McKAY participated in a conspiracy to obtain money by fraud in a value of $5.000,00 or more which was under the control of an organization receiving more than $10,000.00 in benefits annually under a Federal program. The conspiracy also involved making and using false writings containing materially false statements in a matter within  the jurisdiction of the United States Department of Education.
Under the inmate program which was funded in part with federal funds, each instructor was required to teach a minimum of ten. students per semester. The areas of instruction, included food preparation, automotive, agricultural business, and welding. McKay served as welding instructor for the program.
The charges against McKay carry a maximum sentence of five years' imprisonment, a maximum fine of $250,000, and a period of supervised release of up to three years. The trial of the two remaining defendants, Bruce G. Carver, SR.,  and Edmund J. Huguet, SR, is scheduled for September 25, 2000.
Assistant United States Attorneys GAINES CLEVELAND and PETER BARRETT are the prosecutors in charge of the case.
Mr. PIGOTT praised the efforts of the United States Department of Education Office of the Inspector General and the Federal Bureau of Investigation for their diligent work in the investigation of  this case.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov